0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Motion for Leave to File and Amicus Curiae
Brief for Jobs with Justice in Support of Petitioner in
20-1107, Roddie Melvin v. Federal Express
Corporation, was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 15th day of March 2021:
Amanda A. Farahany
Barrett & Farahnay, LLP
1100 Peachtree Street NE
Suite 500
Atlanta, GA 30309
(404) 214-0120
amanda@justiceatwork.com
Counsel for Petitioner
Frederick L. Douglas
Federal Express Corporation
Legal Department-Litigation
3620 Hacks Cross Road
Building B, Third Floor
Memphis, TN 38125-8800
(901) 434-8519
frederick.douglas@fedex.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
· Washington, DC 20005

Paul Koster
Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
paul,koster@emory.edu

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 15, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~ t

51 dOcf(

cl~ AJ . /)~ A-

Notary Public

\___]

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission E~·,;r:s
February 14. ' ._·J

